TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Internal Accounting Errors Reduced the
                         Federal Funding Available for
                     Unemployment Benefits by $63 Million
                    During Fiscal Years 2005 Through 2009



                                          March 26, 2010

                              Reference Number: 2010-10-039




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                March 26, 2010


 MEMORANDUM FOR CHIEF FINANCIAL OFFICER

 FROM:                        Michael R. Philips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Internal Accounting Errors Reduced the Federal
                              Funding Available for Unemployment Benefits by $63 Million During
                              Fiscal Years 2005 Through 2009 (Audit # 200910020)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) has developed and implemented a methodology to reasonably and accurately calculate the
 cost of Unemployment Trust Fund (UTF) administrative expenses using data from appropriate
 business unit sources. This review was part of our Fiscal Year (FY) 2009 Annual Audit Plan
 under the major management challenge of Leveraging Data to Improve Program Effectiveness
 and Reduce Costs. It is a followup review to a FY 2003 Treasury Inspector General for Tax
 Administration report 1 which found that UTF administrative expenses could not be supported or
 replicated and that required reports were not always timely submitted or properly prepared.

 Impact on the Taxpayer
 Our review identified that while additional procedures and controls have been implemented,
 there are still insufficient controls to ensure that expenses associated with the administration of
 the UTF are accurately calculated. For example, the IRS overestimated its UTF-related expenses
 by $63 million during FYs 2005 through 2009. As a result, these funds were not available
 during this period to fund the Federal Government’s share of unemployment benefit payments to
 eligible taxpayers.




 1
  The Internal Revenue Service Needs to Establish an Effective Process to Accurately Identify, Record, and Report
 Unemployment Trust Fund Administrative Expenses (Reference Number 2003-10-054, dated March 27, 2003).
                    Internal Accounting Errors Reduced the Federal Funding
                       Available for Unemployment Benefits by $63 Million
                             During Fiscal Years 2005 Through 2009



Synopsis
Since our last audit, the IRS Chief Financial Officer (CFO) has taken several actions in an effort
to improve the reporting of expenses associated with the administration of the UTF.
Specifically, we determined the CFO developed detailed procedures in Calendar Year 2004 to
support the process used to calculate the UTF expenses submitted for reimbursement. These
procedures detail the process that the IRS business units should follow when calculating the cost
associated with administering the UTF. In addition, the IRS business units are now required to
maintain an audit file to support the costs submitted to the Bureau of the Public Debt for
reimbursement.
While the CFO can now better support the UTF expenses submitted for reimbursement, the IRS
needs to update its current procedures to ensure more accurate costs are calculated and requested
for reimbursement. Specifically, we found that incorrect program codes used by the IRS to track
the volume and costs of forms submitted by taxpayers were used to calculate Employer’s Annual
Federal Unemployment Tax Return (Form 940) processing costs. In addition, salary estimates
for personnel assigned to Form 940-related work were not always properly calculated. When we
brought these errors to CFO management’s attention, the IRS immediately reviewed its
calculations. Based on this review, the IRS recalculated its administrative expenses for the
period and submitted revised reports in October 2009 to the Bureau of the Public Debt. These
errors in the calculation of IRS administrative expenses resulted in both yearly overcharges and
undercharges for the period FY 2005 through the second quarter of FY 2009, totaling
$100,813,988.
We also identified approximately $7 million in additional erroneous administrative expense
overcharges occurring during the third quarter of FY 2009. These calculations had been
submitted to the CFO from the business units but had not yet been formally submitted by the
CFO to the Bureau of the Public Debt. We informed the IRS of these erroneous administrative
expense calculations, and the IRS was able to correct its calculations prior to submitting its
administrative expenses to the Bureau of the Public Debt and, as such, no formal revisions were
required.
Further, we believe the IRS should closely monitor the development of future financial
accounting system requirements to ensure the capability to track and record UTF expenses is
considered. By taking these actions, the IRS will be able to more readily and precisely calculate
all costs associated with administering the UTF.

Recommendations
We recommended that the IRS CFO update the procedures used by the IRS business units to
calculate their UTF administrative expenses; instruct that the audit file and supporting

                                                                                                  2
                    Internal Accounting Errors Reduced the Federal Funding
                       Available for Unemployment Benefits by $63 Million
                             During Fiscal Years 2005 Through 2009


documentation be maintained in a central location, such as the Business Unit Financial office, for
a minimum time period; implement a policy to routinely review documentation supporting the
summary cost reports submitted to the CFO by the IRS business units; and determine on an
annual basis, in coordination with the Commissioner, Wage and Investment Division, if new
versions of the Form 940 are developed and incorporated into its procedures. Finally, we
recommended that the IRS CFO ensure the development of a cost accounting capability is
considered during the development of future financial accounting system requirements that
supports the ability to readily track, record, and report UTF expenses.

Response
IRS management agreed with all of the recommendations in our report. IRS management agreed
to update procedures used by the business units to calculate their UTF administrative expenses
by including in the procedures all types of Forms 940 in use, recognize current business unit
responsibilities, and specify the documentation necessary to be maintained in the audit file. In
addition, IRS management stated that the new procedures will require the audit file be
maintained in the business unit finance office for a minimum of 3 years. Further, management
agreed to institute quarterly reviews of business unit trust fund expense submissions on a rotating
schedule. IRS management will also determine on an annual basis the completeness of the
Wage and Investment Division list of all versions of Form 940 and ensure those versions are
included in the calculation of the UTF administrative expenses. Finally, IRS management will
determine the feasibility of identifying workload management data and integrating it with the
IRS financial accounting system to support the tracking, recording, and reporting of UTF
expenses in future financial accounting system requirements. Management’s complete response
to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations), at (202) 622-8500.




                                                                                                 3
                            Internal Accounting Errors Reduced the Federal Funding
                               Available for Unemployment Benefits by $63 Million
                                     During Fiscal Years 2005 Through 2009




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Unemployment Trust Fund Expenses Are Not Being
          Calculated Accurately...................................................................................Page 4
                    Recommendation 1:........................................................Page 7

                    Recommendations 2 through 4:.........................................Page 8

          The Internal Revenue Service’s Financial Accounting System Cannot
          Directly Record or Calculate the Overall Cost of Unemployment
          Trust Fund Administrative Expenses............................................................Page 8
                    Recommendation 5:........................................................Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Outcome Measure ................................................................Page 15
          Appendix V – Management’s Response to the Draft Report .......................Page 17
      Internal Accounting Errors Reduced the Federal Funding
         Available for Unemployment Benefits by $63 Million
               During Fiscal Years 2005 Through 2009




                  Abbreviations

CFO         Chief Financial Officer
FY          Fiscal Year
IRS         Internal Revenue Service
UTF         Unemployment Trust Fund
                        Internal Accounting Errors Reduced the Federal Funding
                           Available for Unemployment Benefits by $63 Million
                                 During Fiscal Years 2005 Through 2009




                                            Background

The Federal-State unemployment compensation program
is a system that provides benefits to eligible,                The Unemployment Trust Fund
unemployed workers to help provide for necessities such          was established to provide
as food, clothing, and shelter. A Federal tax is levied on          a portion of extended
                                                               unemployment benefits during
employers based on wages paid to employees, which is
                                                               periods of high unemployment.
used to fund Federal responsibilities under the program.
The Internal Revenue Service (IRS) is responsible for
collecting and processing this tax through the filing of the Employer’s Annual Federal
Unemployment Tax Return (Form 940). Funds received by the IRS are deposited into the
Unemployment Trust Fund (UTF), for which the Department of the Treasury is designated to act
as the managing trustee. The IRS advised us that it received approximately $6.8 billion in
UTF deposits in Fiscal Year (FY) 2009. The Department of Labor shares responsibility for
administering the UTF.
The UTF was established by the Social Security Act 1 to provide a portion of extended
unemployment benefits during periods of high unemployment and provide a loan fund for States
when State unemployment funds are insufficient to pay State unemployment benefits. The
Social Security Act directs the Secretary of the Treasury to pay from the UTF the estimated costs
incurred by the Department of the Treasury, including activities of the IRS, in connection with
the administration of the fund. As a result, the IRS determines and reports its administrative
expenses associated with collecting and processing the Forms 940 in accordance with established
Department of the Treasury policies. The IRS reported approximately $96.4 million in UTF
administrative expenses for FY 2009. 2
Specifically, Treasury Directive 32-06, Administrative Expenses for Trust Funds, guides the
IRS’ reporting of UTF administrative expenses and requires the IRS to compile and report these
expenses to the Bureau of the Public Debt. This directive requires the IRS to submit the
following reports to the Bureau of the Public Debt’s Office of Public Debt Accounting:
    •   A quarterly report estimating trust fund administrative expenses.
    •   A fiscal year-end report summarizing and adjusting estimated expenses to actual
        expenses.


1
  42 U.S.C. Section 1104 (a) (Supp. V 1999).
2
  After the IRS determines its costs associated with collecting unemployment taxes, it requests reimbursement from
the Bureau of the Public Debt, which transfers the requested reimbursement from the UTF to the Department of the
Treasury General Fund for overall Federal Government operations. The funds are not returned to the IRS’ budget.
                                                                                                           Page 1
                        Internal Accounting Errors Reduced the Federal Funding
                           Available for Unemployment Benefits by $63 Million
                                 During Fiscal Years 2005 Through 2009



    •   A report of expected annual expenses for budget purposes covering the current and the
        next 10 budget years.
The IRS calculates the full cost of administering the UTF for the Department of Labor in two
steps: 1) by calculating the direct costs of labor resources used on UTF-related work and 2) by
applying an overhead rate to those direct labor resource costs. To determine the direct costs of
labor resources, the IRS relies on cost calculations performed by the individual IRS business
units directly responsible for performing unemployment tax work, such as processing and/or
performing enforcement duties related to the Form 940. Five IRS business units incur direct
labor costs in the administration of Form 940-related duties, and these business units report their
direct labor costs to the IRS Chief Financial Officer (CFO) in the form of summary reports. The
CFO is responsible for compiling these summary reports and submitting the composite UTF
administrative costs to the Bureau of the Public Debt.
In FY 2003, a Treasury Inspector General for Tax Administration report 3 found that the IRS did
not have an effective process to accurately identify, record, or report UTF administrative
expenses. Specifically, we found that administrative expenses reported to the Bureau of the
Public Debt could not be supported or replicated and that required reports were not always
timely submitted or properly prepared. We also found that the IRS did not have sufficient,
comprehensive cost information on which to base estimated expenses of administering the UTF.
As a result, we were unable to substantiate the reported expenses or make any assurances that
reported expenses were accurate, complete, or consistent. We recommended that the CFO:
    •   Develop written procedures documenting a methodology identifying all systems and
        sources of information associated with the UTF administrative expenses to ensure the
        most reasonable and timely means of identifying and reporting all expenses.
    •   Establish controls to ensure that any amounts reported to the Bureau of the Public Debt
        are reviewed and approved by a senior level IRS executive.
    •   Ensure that the ability to record and report trust fund administrative expenses be
        incorporated into the Integrated Financial System. 4
Our review was performed at the Washington, D.C., offices of the CFO, Tax Exempt and
Government Entities Division, and Department of Labor; the Small Business/Self-Employed
Division in San Francisco, California; and the Wage and Investment Division in
Atlanta, Georgia, during the period May through November 2009. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We

3
  The Internal Revenue Service Needs to Establish an Effective Process to Accurately Identify, Record, and Report
Unemployment Trust Fund Administrative Expenses (Reference Number 2003-10-054, dated March 27, 2003).
4
  The IRS accounting system.
                                                                                                           Page 2
                    Internal Accounting Errors Reduced the Federal Funding
                       Available for Unemployment Benefits by $63 Million
                             During Fiscal Years 2005 Through 2009



believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                          Page 3
                     Internal Accounting Errors Reduced the Federal Funding
                        Available for Unemployment Benefits by $63 Million
                              During Fiscal Years 2005 Through 2009




                                Results of Review

Our review identified that while additional procedures and controls have been implemented since
our last audit, there are still insufficient controls to ensure that expenses associated with the
administration of the UTF are accurately calculated. For example, the IRS materially
overestimated its UTF-related expenses by $63 million during the period FY 2005 through
FY 2009. As a result, these funds were not available during this period to fund the Federal
Government’s share of unemployment benefit payments to eligible taxpayers.
Since our last audit, the CFO has taken several actions in an effort to improve the reporting of
expenses associated with the administration of the UTF. Specifically, we determined the CFO
developed detailed procedures in Calendar Year 2004 to support the process used to calculate the
UTF expenses submitted for reimbursement. These procedures detail the process that the IRS
business units should follow when calculating the cost associated with administering the UTF.
In addition, the IRS business units are now required to maintain an audit file to support the costs
submitted to the Bureau of the Public Debt for reimbursement.
While the development of detailed procedures and the requirement to maintain an audit file allow
the CFO to better support the UTF expenses submitted for reimbursement, we determined the
IRS needs to update its current procedures to ensure more accurate costs are calculated and
requested for reimbursement. In addition, we believe the IRS should plan to integrate the
capability to record and calculate UTF expenses into the future financial accounting system
requirements currently being developed to more precisely calculate all costs associated with
administering the UTF in the future. By taking these actions, the IRS will more readily and
accurately estimate the costs associated with administering the UTF and ensure the proper
amount of funds is paid from the UTF to cover the IRS’ costs.

Unemployment Trust Fund Expenses Are Not Being Calculated
Accurately
The IRS can take additional actions to more accurately calculate the costs associated with
administering the UTF. Specifically, we determined that incorrect program codes were used to
calculate the costs associated with processing the Form 940. In addition, the procedures used by
the IRS to calculate its UTF costs have not been updated to reflect changes in IRS work
processes and new policies.

Incorrect program codes were used to calculate Form 940 processing costs
During our review of the audit files and supporting documentation maintained by the IRS offices
responsible for determining UTF administrative expenses for reimbursement, we found that

                                                                                            Page 4
                    Internal Accounting Errors Reduced the Federal Funding
                       Available for Unemployment Benefits by $63 Million
                             During Fiscal Years 2005 Through 2009



errors occurred in the calculation of expenses incurred in the administration of the UTF. The
IRS assigns code numbers to forms submitted by taxpayers (such as the Form 940) which allow
it to track the volume of forms processed and estimate costs associated with processing these
forms. However, we determined that codes used by the IRS to track the volume and cost of
processing Employer’s Quarterly Federal Tax Returns (Form 941) were incorrectly applied to the
cost of administering the UTF. In addition, salary estimates for personnel assigned to
Form 940-related work were not always properly calculated. These errors in the calculation of
UTF administrative expenses occurred during the period FY 2005 through FY 2009.
Specifically, we determined:
   •   Not all codes associated with Form 940 were included in the calculation of IRS
       administrative costs. These codes relate to electronic processing of the Form 940. As a
       result, the IRS underestimated some of its costs for administering the UTF by not
       including all electronic processing costs associated with the filing of Form 940.
   •   The IRS included the costs of processing Forms 941 when calculating its UTF expenses.
       However, the Form 941 is used by employers to report their quarterly employment tax
       obligations and is not related to the Form 940. As a result, these costs should not be
       included in the UTF administration costs. The IRS overestimated its costs for
       administering the UTF by including costs associated with Forms 941.
   •   The salary allocation for certain personnel assigned to UTF-related work was not always
       properly calculated. As a result, the IRS underestimated its costs for administering the
       UTF.
When we brought these errors to CFO management’s attention, the IRS immediately reviewed its
calculations. Based on this review, the IRS recalculated its administrative expenses for the
period and submitted revised reports in October 2009 to the Bureau of the Public Debt. These
errors in the calculation of IRS administrative expenses resulted in both yearly overcharges and
undercharges for the period FY 2005 through the second quarter of FY 2009, totaling
$100,813,988. Due to the offsetting nature of the 2 types of errors, the IRS’ revised submission
to the Bureau of the Public Debt represented a net overstatement of administrative expenses of
$63,368,413. This $63,368,413 overstatement represents the amount the UTF was underfunded
during the period FY 2005 through the second quarter of FY 2009.
The lengthy duration of these errors is attributable to both a lack of routine reviews of
administrative expense cost calculation documentation submitted by the IRS business units to the
CFO and the use of outdated procedures, which did not include all necessary variations of the
Form 940 in its administrative expenses calculation instructions. Routine reviews of business
unit submissions for conformity to updated procedures by the CFO’s office could have limited
the extent of the occurrence of these errors.
Figure 1 provides a yearly breakdown of the IRS calculation errors requiring the submission of
revised billing reports to the Bureau of the Public Debt, including the total net effect and the
                                                                                           Page 5
                        Internal Accounting Errors Reduced the Federal Funding
                           Available for Unemployment Benefits by $63 Million
                                 During Fiscal Years 2005 Through 2009



absolute value of both erroneous overcharges and undercharges (amounts undercharged to the
UTF shown in parentheses).
                              Figure 1: Erroneous UTF Expenses for
                               FY 2005 – FY 2009 (Second Quarter) 5

                  FY                   Undercharge                Overcharge                Net Value
                 2005                          ($471,671)               $6,154,567               $5,682,896

                 2006                        ($7,368,203)                  $72,208             ($7,295,995)

                 2007                        ($4,943,232)             $21,631,521               $16,688,288

                 2008                        ($5,798,546)             $34,965,584               $29,167,039

         2009 (through the                     ($141,134)             $19,267,321               $19,126,187
          Second Quarter)
       Totals                               ($18,722,787)             $82,091,201               $63,368,413
      Source: IRS UTF administrative expense reimbursement submissions to the Bureau of the Public Debt
      (October 2009).

We also identified approximately $7 million in additional erroneous administrative expense
overcharges occurring during the third quarter of FY 2009. These calculations had been
submitted to the CFO from the business units but had not yet been formally submitted by the
CFO to the Bureau of the Public Debt. We informed the IRS of these erroneous administrative
expense calculations, and the IRS was able to correct its calculations prior to submitting its
administrative expenses to the Bureau of the Public Debt and, as such, no formal revisions were
required.

Written procedures have been developed but need to be updated, and routine
reviews of reimbursement claims should be performed
While the development of procedures in response to our prior report was an important step in
improving the way the IRS determines its cost for UTF administrative expenses, the procedures
have not been updated since their development in Calendar Year 2004 to reflect changes in IRS
organizational responsibilities due to realignment and new policies. In addition, we determined
detailed documentation supporting UTF expense calculations is not maintained or reviewed to
ensure the accuracy of reported costs.
Specifically, we determined the current procedures do not include all types of the Form 940
which are currently in use. In addition, the IRS has undergone changes to its work processes in


5
  Due to rounding, minor variations in totaling the stated figures may occur. The actual amount of total IRS revised
reimbursement submissions was $63,368,413.
                                                                                                             Page 6
                     Internal Accounting Errors Reduced the Federal Funding
                        Available for Unemployment Benefits by $63 Million
                              During Fiscal Years 2005 Through 2009



the 5 years following the initial development of these procedures. Most notably, work processes
accounted for in the procedures by the Small Business/Self-Employed Division are now
performed by the Wage and Investment Division. However, the procedures have not been
updated to reflect these changes. By not updating the procedures with this information, there is
an increased risk that the IRS will calculate inaccurate UTF expenses.
Further, the procedures currently require the IRS business units to calculate the amount of certain
nonlabor costs, such as storage of returns filed, and include these costs in the UTF expenses.
However, beginning in FY 2009, the CFO implemented a policy which excludes actual
nonlabor costs from its calculation of administrative expenses. Although we did not identify any
instances of actual nonlabor costs included in the calculation of administrative expenses, the
potential exists that these costs could be incorrectly included in UTF expense estimates if IRS
procedures are not updated to reflect this recent policy decision.
In addition, the procedures should be expanded to require responsible IRS business units to
maintain additional documentation which can be used to support their calculations of
administrative expenses. The procedures require that an audit file must be maintained; however,
they do not specifically require the maintenance of detailed documentation supporting the
calculations used by the business units to report quarterly administrative expenses to the CFO’s
office. Further, the procedures do not specify a minimum amount of time for documents in the
audit file to be maintained. An expanded audit file, along with a requirement to maintain the
documentation located in the audit file for a minimum time period, would allow for the increased
ability to review future administrative expense calculations for accuracy.
Our review of FY 2009 administrative expenses submitted to the Bureau of the Public Debt
showed that the final amounts reported were approved by a senior level IRS executive, as
recommended in our prior report. However, the IRS did not perform documented reviews of
detailed supporting documentation for the figures in the summary reports submitted from the
individual IRS business units. As a result, the IRS executive approver within the CFO’s office
did not identify that errors in the calculation of administrative expenses occurred. Periodic
reviews by management of detailed expense documentation are a critical control in ensuring the
accuracy of reported program costs.

Recommendations
The IRS CFO should:
Recommendation 1: Update the procedures used by the IRS business units to calculate their
UTF administrative expenses. At a minimum, the procedures should be updated to include, by
name, all types of Form 940 in use; recognize current business unit alignments and
responsibilities; and specify the documentation necessary to be maintained in the audit file.



                                                                                            Page 7
                     Internal Accounting Errors Reduced the Federal Funding
                        Available for Unemployment Benefits by $63 Million
                              During Fiscal Years 2005 Through 2009



       Management’s Response: IRS management agreed and will issue new procedures to
       the business units. The updated procedures will address all types of Forms 940 in use,
       recognize current business unit alignments and responsibilities, and specify
       documentation necessary to be maintained in the audit file.
Recommendation 2: Instruct that the audit file and the supporting documentation be
maintained in a central location, such as the Business Unit Financial office, to facilitate the
effective location and retrieval of the files when performing a review. The supporting
documentation in the audit file should be maintained for a minimum time period, such as
3 years.
       Management’s Response: IRS management agreed and will include in the new
       procedures the requirement to maintain the audit file in the Business Unit Financial office
       for a minimum of 3 years.
Recommendation 3: Implement a policy to routinely review documentation supporting the
summary cost reports submitted to the CFO by the IRS business units to ensure the accuracy of
the information submitted in the summary reports.
       Management’s Response: IRS management agreed and will institute quarterly
       reviews of business unit trust fund expense submissions and the underlying supporting
       data for those submissions.
Recommendation 4: Determine, on an annual basis in coordination with the Wage and
Investment Division, if new versions of the Form 940 are developed; incorporate any new
versions of the Form 940 into its procedures; and review summary cost reports submitted by the
Wage and Investment Division to ensure new versions of the Form 940 are included in the
calculation of UTF administrative expenses.
       Management’s Response: IRS management agreed and will determine, on an
       annual basis, the completeness of the Wage and Investment Division list of all versions of
       Form 940 and ensure those versions are included in the calculation of the UTF
       administrative expenses through the review process.

The Internal Revenue Service’s Financial Accounting System Cannot
Directly Record or Calculate the Overall Cost of Unemployment Trust
Fund Administrative Expenses
In our FY 2003 report, we recommended the IRS ensure that the ability to record and report
administrative expenses be incorporated into the Integrated Financial System to allow for a
documented and repeatable process which can provide reliable information on the estimated UTF
administrative costs. At that time, management indicated that the Integrated Financial System
would contain a cost accounting module that would provide greater traceability of financial data

                                                                                              Page 8
                        Internal Accounting Errors Reduced the Federal Funding
                           Available for Unemployment Benefits by $63 Million
                                 During Fiscal Years 2005 Through 2009



to the existing management information system data, thus providing for a more reliable source of
expense data.
Although the IRS has improved its cost accounting capabilities since our last review, it still does
not have the ability to readily track and record expenses specifically relating to the UTF through
the Integrated Financial System. Currently, information regarding direct labor hours and
production data regarding the number of Federal unemployment tax returns processed must be
gathered from multiple information systems. Gathering this data requires actions on the part of
five different IRS business units and must ultimately be manually combined with data from the
Integrated Financial System by CFO staff. As a result, the calculation of quarterly UTF
expenses is still a cumbersome and time consuming process, with a high risk for errors.
In addition, as a result of the limitations of the Integrated Financial System, the IRS calculates
the full cost of administering the UTF for the Department of Labor by first manually compiling
direct labor resource expense data calculated and submitted by the responsible business units and
then applying a single overhead rate 6 to those direct labor resource costs. Although this two-step
process for determining UTF administrative expenses is relatively simple, the use of manual
processes increases the risk of calculation errors. Further, the IRS must still comply with Federal
accounting standards which require that the full cost of outputs, such as services performed or
customers served, be recognized and matched with the costs for producing those outputs.
However, the only costs directly identified as related to the UTF are direct labor. The cost of all
other items, including costs of items such as printing and mailing Federal unemployment tax
returns and publications, are included in the general overhead rate.
The IRS informed us that it is currently in the process of developing the requirements for its
future financial accounting system. We believe that the IRS should closely monitor the
development of future financial accounting system requirements in order to ensure the capability
to the integrate all of the information needed to readily track and record UTF expenses is fully
considered. In addition, management stated the IRS developed its current overhead rate
methodology based on a determination of cost effectiveness and believes the amount of effort
necessary to incorporate the more specific data available would exceed the potential benefit, as
well as increase the potential for errors by adding more manual steps to the calculation of the
overhead rate. While we believe the IRS’ current approach is reasonable given the limitations of
its current financial system, the IRS will be able to more precisely calculate program costs by
incorporating the capability to readily track and record specific UTF expenses into future
financial accounting system requirements.




6
  The UTF overhead rate applied to direct labor resources in FY 2009 was 74.55 percent (i.e., for every dollar
identified as having been spent performing UTF-related work, approximately 75 cents was added for the IRS’
calculation of administrative expenses).
                                                                                                             Page 9
                    Internal Accounting Errors Reduced the Federal Funding
                       Available for Unemployment Benefits by $63 Million
                             During Fiscal Years 2005 Through 2009



Recommendation
The IRS CFO should:
Recommendation 5: Ensure a cost accounting capability that supports the ability to readily
track, record, and report UTF expenses is considered during the development of future financial
accounting system requirements.
       Management’s Response: IRS management agreed and will determine the
       feasibility of identifying workload management data and integrating it with its financial
       accounting system to support the tracking, recording, and reporting of UTF expenses in
       future financial accounting system requirements.




                                                                                          Page 10
                    Internal Accounting Errors Reduced the Federal Funding
                       Available for Unemployment Benefits by $63 Million
                             During Fiscal Years 2005 Through 2009




                                                                                  Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS has developed and
implemented a methodology to reasonably and accurately calculate the cost of UTF
administrative expenses using data from appropriate business unit sources. To accomplish our
objective, we:
I.     Documented procedures to identify, record, and report UTF administrative expenses,
       including established internal controls.
       A. Identified through discussions with responsible officials and a review of applicable
          procedures how costs associated with performing the roles and responsibilities for
          UTF processing are determined.
       B. Reviewed all Department of the Treasury and IRS policies and guidance for
          identifying, recording, and reporting administrative expenses.
       C. Identified processing risks and related internal controls.
II.    Determined whether the IRS’ current methodology is reasonable based on cost
       accounting policies/requirements/regulations.
       A. Ascertained whether policies established by the IRS, if implemented as described, can
          be relied upon to produce reasonably accurate, current, and reliable data for the
          purpose of capturing UTF administrative expenses.
       B. Interviewed key business unit contacts which submit UTF administrative expenses to
          determine if the methodology used to calculate UTF administrative expenses is
          consistent and adheres to policies and procedures currently implemented by the IRS.
III.   Assessed whether the IRS is in compliance with the Department of the Treasury reporting
       requirements when submitting reports containing UTF administrative expenses to the
       Bureau of the Public Debt.
IV.    Determined whether UTF administrative expenses reported by the IRS are accurately
       calculated and substantiated by complete and reliable supporting documentation.
       A. Obtained the quarterly, year-end, and 10-year projection reports for the periods under
          review. For purposes of this test, the fiscal year-end 2008 report, 10-year projection,
          and the first 3 quarters of FY 2009 were initially reviewed. We subsequently
          expanded our review to include the period FY 2005 through FY 2008.

                                                                                         Page 11
                       Internal Accounting Errors Reduced the Federal Funding
                          Available for Unemployment Benefits by $63 Million
                                During Fiscal Years 2005 Through 2009



        B. Reviewed supporting documentation associated with quarterly UTF expenses
           reported by the IRS for the first three quarters of FY 2009.
        C. Compared reported summary amounts to those included in the detailed
           documentation.
        D. To test data reliability, we analyzed Form 940 document volume counts processed in
           the IRS Submission Processing campuses 1 from the Submission Processing Measures
           Analysis and Reporting Tool database. The audit period we used was FY 2009
           (October 2008 – September 2009). The percentage of deviation to overall volume
           counts was negligible and the IRS data are considered sufficiently reliable for our
           audit purposes. We did not make any projections in this review.
V.      Followed up on prior audit recommendations to determine whether the IRS had
        implemented our recommendations related to UTF administrative expenses.
        A. Reviewed written procedures developed by the CFO to document the methodology,
           including the identification of all systems and sources of information, that would
           ensure the most reasonable and timely means of identifying and reporting all
           expenses associated with the IRS’ administration of the UTF.
        B. Determined whether controls are in place to ensure that any amounts reported to the
           Bureau of the Public Debt are reviewed and approved by a senior level IRS executive.
        C. Evaluated whether the Integrated Financial System has the ability to record and report
           UTF administrative expenses.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS’ policies, procedures, and
practices for calculating the cost of UTF administrative expenses. We evaluated these controls
by interviewing management and reviewing applicable documentation.




1
 Campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                       Page 12
                   Internal Accounting Errors Reduced the Federal Funding
                      Available for Unemployment Benefits by $63 Million
                            During Fiscal Years 2005 Through 2009



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Jeffrey M. Jones, Director
Diana Tengesdal, Acting Director
Anthony J. Choma, Audit Manager
Seth A. Siegel, Lead Auditor
James S. Mills, Jr., Senior Auditor
Melvin Lindsey, Auditor




                                                                                     Page 13
                  Internal Accounting Errors Reduced the Federal Funding
                     Available for Unemployment Benefits by $63 Million
                           During Fiscal Years 2005 Through 2009



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Deputy Chief Financial Officer CFO
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W
       Chief Financial Officer CFO
       Senior Operations Advisor, Small Business/Self-Employed Division SE:S:CCS
       Senior Operations Advisor, Wage and Investment Division SE:W:CAS




                                                                                 Page 14
                     Internal Accounting Errors Reduced the Federal Funding
                        Available for Unemployment Benefits by $63 Million
                              During Fiscal Years 2005 Through 2009



                                                                                  Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Cost Savings, Recommendation That Funds Be Put to Better Use – Actual; $69,989,070
    (see page 4).

Methodology Used to Measure the Reported Benefit:
The IRS incorrectly based its calculation of administrative costs for the UTF (filing and
processing costs of the Employer’s Annual Federal Unemployment Tax Return (Form 940)), in
part, on the costs of taxpayers filing the Employer’s Quarterly Federal Tax Return (Form 941).
However, the Form 941 is used by employers to report their quarterly employment tax
obligations and is not related to the Form 940. As a result, it should not have been included in
the calculation. The IRS also did not include all versions of the Form 940 in the calculation of
administrative costs or always properly calculate the salary allocation for certain personnel
assigned to UTF-related work.
These errors in the calculation of IRS administrative expenses resulted in both yearly
overcharges and undercharges for the period FY 2005 through the second quarter of FY 2009 of
$100,813,988. Following identification of these errors, the IRS recalculated its administrative
expenses for the period and submitted revised reports to the Bureau of the Public Debt. Due to
the offsetting nature of the 2 types of errors, the IRS’ revised submission to the Bureau of the
Public Debt represented a net overstatement of administrative expenses of $63,368,413 for the
period. This $63,368,413 overstatement represents the amount the UTF was underfunded during
the period FY 2005 through the second quarter of FY 2009.
We identified $6,620,657 in additional erroneous administrative expense calculation overcharges
occurring during the third quarter of FY 2009. These calculations had been submitted to the
CFO from the business units and had not yet been formally submitted by the CFO to the Bureau
of the Public Debt. We informed the IRS of these erroneous administrative expense calculations
and the IRS was able to correct its calculations prior to submitting its administrative expenses to
the Bureau of the Public Debt and, as such, no formal revisions were required.



                                                                                           Page 15
                    Internal Accounting Errors Reduced the Federal Funding
                       Available for Unemployment Benefits by $63 Million
                             During Fiscal Years 2005 Through 2009



The total value of our Cost Savings measure represents the sum of the amount of IRS
administrative expense overstatements during the period FY 2005 through the second quarter of
FY 2009 and the amount we identified in the preliminary third quarter billings
($63,368,413 + $6,620,657 = $69,989,070).




                                                                                      Page 16
      Internal Accounting Errors Reduced the Federal Funding
         Available for Unemployment Benefits by $63 Million
               During Fiscal Years 2005 Through 2009



                                                    Appendix V

Management’s Response to the Draft Report




                                                          Page 17
Internal Accounting Errors Reduced the Federal Funding
   Available for Unemployment Benefits by $63 Million
         During Fiscal Years 2005 Through 2009




                                                    Page 18
Internal Accounting Errors Reduced the Federal Funding
   Available for Unemployment Benefits by $63 Million
         During Fiscal Years 2005 Through 2009




                                                    Page 19
Internal Accounting Errors Reduced the Federal Funding
   Available for Unemployment Benefits by $63 Million
         During Fiscal Years 2005 Through 2009




                                                    Page 20
Internal Accounting Errors Reduced the Federal Funding
   Available for Unemployment Benefits by $63 Million
         During Fiscal Years 2005 Through 2009




                                                    Page 21
Internal Accounting Errors Reduced the Federal Funding
   Available for Unemployment Benefits by $63 Million
         During Fiscal Years 2005 Through 2009




                                                    Page 22
